STATUS REPORT ON THE ADVANCED
  TECHNOLOGIES AND OCEANIC
         PROCEDURES
     Federal Aviation Administration
      Report Number: AV-2004-037
       Date Issued: March 31, 2004
U.S. Department of                                      The Inspector General          Office of Inspector General
Transportation                                                                         Washington, DC 20590
Office of the Secretary
of Transportation

March 31, 2004


The Honorable John L. Mica
Chairman
The Honorable Peter A. DeFazio
Ranking Democratic Member
Subcommittee on Aviation
Committee on Transportation
 and Infrastructure
House of Representatives
Washington, DC 20515


Dear Mr. Chairman and Representative DeFazio:

As requested, we are providing you with a status report on the Federal Aviation
Administration’s (FAA) Advanced Technologies and Oceanic Procedures (ATOP)
Program. ATOP is an important, long overdue effort to modernize FAA facilities
that manage air traffic over the Atlantic, Pacific, and Arctic Oceans. This report
summarizes a briefing we provided to Subcommittee staff earlier this year on
FAA’s progress and problems in deploying ATOP. We updated our analysis to
reflect recent developments in the ATOP program. A copy of the updated briefing
materials is enclosed.

Despite advances in computer and communications technology, FAA air traffic
controllers must manually track oceanic air traffic and estimate aircraft locations.
This labor-intensive process requires larger-than-necessary separation between
aircraft because of the lack of real-time information on their location. For example,
using manual procedures, controllers must maintain 100-mile separation1 between
aircraft. By using automation to refine the known position of aircraft, ATOP will
enable FAA to safely reduce separation between aircraft to about 30 miles and
provide for more fuel-efficient routing.


 1
     Separation is a safety standard that refers to the distance between aircraft wingtip to wingtip or nose to
     tail.


 Report Number AV-2004-037
                                                                                    2


After little success with efforts to modernize oceanic facilities in the 1990s, FAA
competitively awarded a $217 million fixed-price contract to Lockheed Martin in
June 2001 to develop and implement ATOP. FAA plans call for oceanic
automation systems to be fielded at Oakland Center in June 2004, New York Center
in March 2005, and Anchorage Center in March 2006.

Results

We found that ATOP has experienced some serious and unexpected software
development and testing problems. For example, the ATOP program completed the
initial phase of testing, known as factory acceptance testing, 12 months later than
internal schedules called for because of the need for additional software
development. The number of lines of software code that needed to be developed for
ATOP rose from 83,000 to the current estimate of 160,000, which represents an
increase of 93 percent over estimates made in 2001. These problems were traceable
to Lockheed Martin’s decision to rely on a previously developed system that could
not meet FAA’s requirements. As a result of the problems, Lockheed Martin did
not meet its contractual milestone to provide an operational system in Oakland by
April 2003.

In October 2003, FAA began systems testing to determine whether the new
automation system would perform as intended. However, testing uncovered
software problems that prompted FAA to halt testing of ATOP’s air traffic
management functions. For example, the system did not meet test criteria for
sending messages between controllers and pilots via data link as quickly as it
should. Also, the system did not meet test criteria for coordinating flight data with
adjacent control facilities when an aircraft passes from one facility to the next.
Testing resumed in February 2004. The time it took to fix these problems places the
June date for deploying ATOP to Oakland in jeopardy because FAA now has less
time to conduct site acceptance testing to ensure the system is installed and
functioning properly.

To FAA’s credit, the Agency took an unusual approach and relied on what is largely
a fixed price contract and kept requirements stable. Consequently, the costs
associated with additional software development and fixing software problems
discovered during testing have, until recently, been absorbed by the contractor, not
the Government.

Due to the software problems and pending delays, FAA on March 9, 2004, modified
the contract in an effort to maintain FAA’s schedule for deploying ATOP to
Oakland by the end of June 2004. The modification expanded the use of cost-
reimbursable elements (time and materials) in the contract and increased the net
value of the contract by $11 million, from $217.9 million to $228.9 million. The


Report Number AV-2004-037
                                                                                                       3


$11 million adjustment is modest compared to cost growth we have seen with other
FAA modernization programs2 and can be accommodated in the current ATOP cost
baseline.

In essence, FAA is now shifting some of the risk for deploying ATOP from the
contractor to the Government. In particular, the modification allows the contractor
to focus additional resources to fix software development problems at the
Government’s expense. The contractor had staff working on a later and more
advanced software version of ATOP even though the first software version was
experiencing problems. Now, FAA has shifted resources to help get the basic
ATOP system to Oakland in June.

Although the increase of $11 million is modest, we are concerned FAA has shifted
the risk of additional cost growth from the contractor to the Government. The
critical issue is what happens with ATOP between now and February 2005. This
timeframe is important because the recent contract modification limits the
contractor’s responsibility for paying to fix software problems FAA finds in ATOP
after February 28, 2005. According to FAA, after work on the initial version of
ATOP software (required for Oakland) is completed, the Agency will test the more
advanced version at its Atlantic City Technical Center by the end of this year. After
February 2005, FAA must pay to fix software problems that are found. Given the
change in the contract and the tight timeframe, it will be critical for FAA to identify
all software problems before that date.

A key schedule driver is how quickly ATOP can successfully pass site acceptance
tests at Oakland. We note that FAA built additional time into the ATOP schedule to
handle unanticipated problems, but most of this schedule reserve was consumed
resolving problems discovered during factory acceptance testing (completed in July
2003), which took much longer than anticipated.

As work on ATOP continues, it is important that FAA keep requirements stable to
control costs and manage a number of challenges that continue to need attention.
They include:

    • Fixing any additional software problems found during testing. The time it
      takes to fix these problems will directly impact the scheduled deployment of
      ATOP.

    • Adapting ATOP to unique oceanic environments. For ATOP to function
      effectively in the Atlantic, Pacific, and Arctic environments, the standard
2
    For additional information on FAA’s major acquisitions, see our Testimony CC-2004-004, “Observations
    on Bringing Fiscal Discipline and Accountability to FAA’s Air Traffic Control Modernization Program,”
    October 30, 2003.


Report Number AV-2004-037
                                                                                                      4


       program software must be adapted, i.e. “customized” to the specific
       requirements of each site’s airspace in terms of routes, fixes, and sector
       boundaries. FAA sought to mitigate this challenge by tasking Lockheed
       Martin to begin work on the New York facility (which controls traffic over
       the Atlantic) in December 2001.

   • Responding to new concerns with human factors as controllers transition to
     the new technology. Controllers have been involved in the development of
     ATOP since the program’s inception. However, FAA believes acceptance by
     all controllers is a concern because ATOP represents a significant change in
     the way controllers will manage air traffic. Specifically, ATOP will require
     controllers to use electronic flight data (instead of paper strips) and rely on a
     new automated tool to help detect potential conflicts between aircraft.

   • Providing training and related materials to controllers and maintenance
     technicians in a timely manner. The challenge lies in getting sufficient
     numbers of controllers and maintenance technicians trained by June 2004.
     With every change made to the software during testing, procedures and
     technical manuals must be revised.

Additionally, FAA is in the process of updating the life-cycle cost for ATOP. The
current total life-cycle cost estimate associated with ATOP is $1.6 billion ($548
million planned for Facilities and Equipment and $1.065 billion planned for
Operations) through fiscal year 2013. Of particular concern are the costs associated
with operating ATOP once it is fielded and the corresponding effect on the
Agency’s Operations account. The following table illustrates the current life-cycle
cost estimate for ATOP.

                        Current Estimated ATOP Life-Cycle Costs
                                     ($ in Millions)
  Funding         2000-2002 2003      2004       2005      2006      2007     2008 – 2013     TOTAL
   Plan
 (Fiscal Years)
Facilities and      $162.9 $93.8        $68.7     $50.4     $35.1     $31.7         $105.6        $548.2
Equipment*
Operations**        $140.6 $74.1        $70.3     $69.3     $81.9     $84.0         $545.3       $1065.5

 Source: FAA’s Approved Baseline as of May 2001.
  * Facilities and Equipment costs include development, engineering and program support, site preparation,
    test and evaluation efforts, as well as planned upgrades, commonly referred to as “tech refresh.”
 ** Operations costs include telecommunications, air traffic labor, airway facilities labor, second-level
    engineering, and sustainment. The telecommunications costs associated with ATOP represents over
    40 percent of the cost to operate the new oceanic system.




 Report Number AV-2004-037
                                                                                    5




These life-cycle costs were developed almost 3 years ago (May 2001), and FAA
recognizes the estimates for operating ATOP once it is fielded are no longer reliable
and need to be updated. FAA plans to have better information on the cost to operate
and sustain ATOP later this year. As we have reported before, the impact on FAA’s
Operations account is important given the increasing demands on this account, as
well as declining budget resources.

We are not making recommendations at this time because FAA management is
aware of the issues and focusing on the risks facing ATOP. We will continue to
monitor progress with ATOP. Also, in the conference report accompanying the
Omnibus Appropriations Bill for Fiscal Year 2004, the Congress directed our office
to compare FAA’s pursuit of oceanic automation capabilities to the experiences of
NavCanada and other oceanic air traffic service providers. We intend to begin work
on that audit later this year.

Objectives, Scope, and Methodology

We performed our review in accordance with Government Auditing Standards
prescribed by the Controller General of the United States. The enclosed briefing
materials provide additional details on objectives, scope, and methodology. The
briefing materials also contain updated information we collected to supplement the
briefing we provided to Subcommittee staff in January 2004.

We provided FAA’s Vice President for En Route and Oceanic Services and ATOP
program officials with a draft of our report and incorporated their comments into the
report where appropriate. The Vice President for En Route and Oceanic Services
generally agreed with our analysis and results.

If I can answer any questions or be of further assistance, please contact me at (202)
366-1959 or my Deputy, Todd J. Zinser, at (202) 366-6767.

Sincerely,




Kenneth M. Mead
Inspector General

Enclosure

cc: FAA Administrator


Report Number AV-2004-037
                                                                                                           6




                    Status Report on the Advanced
                      Technologies and Oceanic
                             Procedures



                               Office of Inspector General
                       Briefing for the Subcommittee on Aviation
                           Committee on Transportation and
                                      Infrastructure
                             U.S. House of Representatives




                                               Overview

              The House Aviation Subcommittee asked our office to provide a status report on
              the Advanced Technologies and Oceanic Procedures (ATOP) program. In doing
              so, we evaluated FAA’s progress in meeting cost, schedule and performance
              parameters. We also examined risks to meeting ATOP’s first deployment, which
              is planned for June 2004. Our work was performed in accordance with generally
              accepted government auditing standards.

              This report addresses:
                   • Defining ATOP
                   • Managing Oceanic Airspace
                   • Modernizing Oceanic Airspace
                   • Reviewing ATOP Cost and Schedule
                   • Assessing Progress and Problems
                   • Managing Challenges to Cost and Schedule




Report Number AV-2004-037                                                                      Enclosure
                                                                                                                                 7




                                                Defining ATOP

           l   ATOP is a long-overdue new automation system specifically designed for FAA facilities that
               manage oceanic air traffic. ATOP is important because controllers currently rely on a labor-
               intensive process (i.e., using paper strips) to monitor air traffic for surveillance and separation
               purposes.
           l   ATOP will collect, manage, and display air traffic data as well as provide electronic flight-strip
               data on the computer displays. The new system will integrate a variety of capabilities such as
               automatic dependent surveillance, data link communications (for controllers and pilots), and
               conflict probe.
          l    ATOP has important benefits such as enabling FAA
               to safely reduce aircraft separation from 100 nautical
               miles to 30 nautical miles, commonly referred to as
               “30/30 separation” (meaning 30 miles separation
               wingtip to wingtip and nose to tail), a desirable
               benefit for airlines who operate international routes.
          l    ATOP will also allow airlines to take advantage of
               technologies currently onboard aircraft, including the
               Future Air Navigation System (FANS-1) avionics
               package.




                                  Managing Oceanic Airspace

           ATOP will help promote
           U.S. leadership in air traffic                           U.S. Oceanic Airspace
           management around the world.
           FAA is currently responsible for
           providing air traffic services to
                                                                                       Controlled
           80 percent of the world’s
                                                                                          by
           controlled oceanic airspace. This                                           Anchorage
           airspace is assigned by the
           International Civil Aviation                                                                       Controlled
                                                                                    Controlled                 by New
           Organization, and it can be                                                 by                       York
           reassigned to another country.                                            Oakland

           FAA’s oceanic facilities handled
           more than 600,000 flights in 2002.
           (Oakland handled more than
           220,000 flights, New York more
           than 350,000, and Anchorage
           more than 66,000.)




Report Number AV-2004-037                                                                                            Enclosure
                                                                                                                                    8




                                                 Modernizing Oceanic Airspace

                l   FAA has struggled for years to modernize its oceanic
                    facilities. In 1995, FAA awarded a contract for oceanic
                    modernization to the Hughes Corporation. However, in
                    1998, due to poor contractor performance and other
                    problems, the contract was downsized to deliver only the
                    data link portion of the system.
                l   In 2001, FAA embarked on a new effort to modernize its
                    oceanic air traffic control facilities and awarded a largely
                    firm-fixed-price contract to Lockheed Martin for $217
                    million to procure four new oceanic systems (for
                    Oakland, New York, Anchorage, and the FAA Technical
                    Center).




                                                   ATOP Cost and Schedule

              The planned total life-cycle cost associated with ATOP is $1.6 billion ($548 million planned for
              Facilities and Equipment and $1.065 billion planned for Operations) through 2013. Thus far,
              Congress has appropriated $321.3 million toward the ATOP acquisition.
                                                        Planned Investment Profile
                         $100.0
                                         $93.8                As of May 2001
                                         $90.0
                     Costs in Millions




                                                                                                       $84.0
                                         $80.0       $74.1                                  $81.9
                                                                 $70.3
                                         $70.0                                $69.3
                                                             $68.7                                         F& E
                                         $60.0
                                                                              $50.4                        Operations
                                         $50.0
                                         $40.0                                              $35.1
                                                                                                       $31.7
                                         $30.0
                                         $20.0
                                                             Oakland     New York     Anchorage
                                         $10.0
                                                             6/2004       3/2005       3/2006
                                          $0.0
                                                  2003       2004         2005          2006        2007
          •    In addition to development costs, FAA will use Facilities and Equipment (F&E) funds for
               engineering and program support, site preparation, and test and evaluation efforts, as well as
               planned upgrades (including “tech refresh”) for the system.
          •    The estimates for operations cost, the bulk of which are telecommunications and labor costs,
               are under review by FAA and need to be updated.




Report Number AV-2004-037                                                                                               Enclosure
                                                                                                                                                                                     9




                                    Assessing Progress and Problems

          At an early stage, the ATOP program experienced software development problems because Lockheed Martin
          underestimated the amount of software code needed to meet FAA’s requirements. This resulted in unexpected
          additional software development and schedule delays.

           •   The software lines of code that needed to be developed for ATOP increased by 93 percent (from
               83,000 to 160,000 lines of code) since 2001. As a result, the first phase of testing —known as factory
               acceptance testing conducted by Lockheed Martin to determine if the system meets FAA
               requirements—was completed 12 months behind schedule.
                                                                                                         180,000            Growth in Lines of Code
           •   Software development problems are
                                                                                                                              As of January 2004
               traceable to Lockheed Martin’s                                                            160,000

               decision to rely on non-                                                                  140,000                                               160,000

               developmental software from an                                                                                                152,000
                                                                                Software Lines of Code   120,000
               existing system that they did not fully                                                                          120,000
               evaluate and that did not fully meet                                                      100,000


               FAA requirements.                                                                          80,000
                                                                                                                   83,000

           •   As a result of the problems, Lockheed                                                      60,000

               Martin did not meet its contractual                                                        40,000

               milestone to provide an operational
                                                                                                          20,000
               system in Oakland by April 2003.
                                                                                                              0
                                                                                                                   2001          2002         2003              2004




                                      Assessing Progress and Problems

               l       System testing1 began in October 2003. During testing, FAA uncovered a number of test-
                       critical issues that forced FAA to halt testing of ATOP’s air traffic management functions. For
                       example, when a controller typed a message to a pilot via data link, the system did not send the
                       message as quickly as it should. Also, the system did not properly coordinate flight data to
                       adjacent control facilities when an aircraft passed from the one facility to the next. According
                       to FAA officials, issues had to be fixed before testing could resume.
               l       It is uncertain whether ATOP can be operational in Oakland by June 2004 as currently planned.
                       The agency built in additional time (beyond the contractual initial operating date) for
                       unexpected problems, but most of this schedule reserve has been consumed addressing
                       problems discovered during Factory Acceptance Testing conducted by Lockheed Martin.
               l       Until recently, the costs associated with additional software development and fixing software
                       problems have been absorbed by the contractor—not the Government. This is because FAA
                       has relied on what is largely a fixed-price contract and kept requirements stable.
               l       Facing delays to deploying ATOP to Oakland, on March 9, 2004 FAA modified the contract in
                       an effort to maintain the schedule. The modification will expand the time-and-materials portion
                       of the contract, and increase the net value of the contract by $11 million.


                   1System testing is a review conducted at the FAA William J. Hughes Technical Center to ensure the system works as intended. Testing involves both
                   Air Traffic and Maintenance Technician Functions.




Report Number AV-2004-037                                                                                                                                                Enclosure
                                                                                                                                       10




                             Assessing Progress and Problems

            The key schedule driver to deploying ATOP to Oakland is successful completion of
            System Test and Site Acceptance Testing. Until these two significant tests are
            completed, we cannot determine if the schedule for deploying ATOP to Oakland in
            June 2004 can be met.
                                                                                                               Extent of
                                 Event                                Planned                 Actual            Delays
           Factory Acceptance Testing: Conducted by
           Lockheed Martin to determine if system meets           Start: May 2002      Start: November 2002      12
           FAA requirements.                                      End: July 2002          End: July 2003        months
                                                                                        Start: October 2003
           System Testing: Review conducted at the FAA                                 Delayed due to issues   At least
           William J. Hughes Technical Center to ensure the      Start: August 2002       with Air Traffic       17
           system works as intended.                             End: October 2002           Functions         months
           Site Acceptance Testing: Lockheed Martin test to                                                    At least
           ensure system is installed and functioning           Start: November 2002                             16
           properly on site.                                     End: November 2002            TBD             months
           Oakland Initial Operating Capability: Airway
           Facilities declares system capable for conditional
           use in the National Airspace System.                      June 2004                 TBD               N/A




                                              Managing Challenges
                                              to Cost and Schedule

               FAA needs to keep requirements stable and manage a number of challenges to
               prevent further cost growth and schedule delays.


                •    Software Development and Discovery of Unexpected Problems During
                     Testing. According to program officials, this is one of the most important
                     watch items. Our prior audit work on other FAA major acquisitions shows
                     that when any software-intensive effort experiences difficulty in the early
                     stages of development, problems tend to persist and take longer to resolve.
                     Testing has uncovered problems that need to be fixed. Most recently,
                     software problems were identified that caused FAA to prematurely halt
                     testing of ATOP’s Air Traffic functions. Lockheed Martin resolved these
                     problems and testing resumed in February 2004. The time and effort it
                     takes to resolve problems that are discovered during testing is important
                     because the current schedule calls for ATOP to be deployed at Oakland in
                     June 2004.




Report Number AV-2004-037                                                                                                  Enclosure
                                                                                                                  11




                                   Managing Challenges

             •   Adapting ATOP Software to Atlantic, Pacific, and Arctic Oceanic
                 Environments. For ATOP to function effectively and to provide promised
                 benefits safely, standard program software must be adapted for each specific
                 airspace in Oakland, New York, and Anchorage. The new system must
                 precisely mirror routes, boundaries, and fixes. For example, at the New York
                 facility, ATOP must provide a seamless transition to airspace on the Atlantic
                 seaboard, which is more congested and complex than the Pacific airspace. In
                 December 2001, FAA sought to mitigate this challenge by tasking Lockheed
                 Martin to begin work on the New York facility (which controls traffic over the
                 Atlantic).




                                   Managing Challenges

             •   Human Factors and Transitioning to New Technology. Controllers have
                 been involved in the development of ATOP since the program’s inception.
                 However, FAA believes acceptance by all controllers is a concern because
                 ATOP represents a significant change in the way controllers will manage air
                 traffic. Specifically, ATOP will require controllers to use electronic flight data
                 (instead of paper strips) and rely on a new automated tool to help detect
                 potential conflicts between aircraft. After software development and testing,
                 ATOP program officials believe this is the most pressing management
                 challenge facing the implementation of this new system. However, this
                 transition should be manageable, given that other FAA facilities (enroute
                 facilities that manage high altitude traffic over the continental United States)
                 are using automated controller tools and electronic flight data.




Report Number AV-2004-037                                                                             Enclosure
                                                                                                                    12




                                     Managing Challenges

             •   Training for Controllers and Maintenance Technicians. The challenge lies
                 in getting sufficient numbers of controllers and maintenance technicians trained
                 by June 2004, when the first system is expected to be operational at Oakland.
                 FAA points out that some revisions to training may result from changes that
                 occur as a result of testing. Airway Facilities training materials (i.e., procedure
                 and technical manuals) have yet to be fully developed and approved. This is a
                 deliverable under the contract with Lockheed Martin. Technician training takes
                 about 12 weeks. FAA recognizes this is a problem and is looking at
                 alternatives to speed up the training process, including hiring additional
                 instructors.




                         Objective, Scope and Methodology

             Our objective was to evaluate FAA’s management of the ATOP program with respect to
             cost, schedule, and performance. We focused our efforts on FAA’s progress to provide the
             first operational system to Oakland, California.
            To meet this objective, we:
            • Reviewed key documents for the ATOP program such as the acquisition strategy plans.
            • Interviewed ATOP program officials, test officials at William J. Hughes Technical
              Center, and Lockheed Martin officials to discuss the test program and test issues
              associated with the air traffic/airways facilities training programs.
            • Reviewed ATOP test reports, gathered data on critical program trouble reports, and
              assessed FAA’s and Lockheed Martin’s progress on these program trouble reports.
            • Reviewed cost and schedule analysis reports, as well as obtained and reviewed Lockheed
              Martin’s earned value management reports and monthly program management reviews,
              to assess FAA’s progress in meeting the cost, schedule, and performance goals for this
              program.
            • Visited the Oakland oceanic facility in California to actually witness the system.




Report Number AV-2004-037                                                                               Enclosure
